           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




   ADMINISTRATIVE COSTS CLAIMED
     BY THE INDIANA DISABILITY
      DETERMINATION BUREAU

     June 2006   A-05-05-15135




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   June 12, 2006                                                                Refer To:

To:     James F. Martin
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Administrative Costs Claimed by the Indiana Disability Determination Bureau
        (A-05-05-15135)


        OBJECTIVE

        The objectives of our audit were to evaluate the Indiana Disability Determination
        Bureau’s (IN-DDB) internal controls over the accounting and reporting of administrative
        costs, determine whether costs claimed by the IN-DDB were allowable and funds were
        properly drawn, and assess limited areas of the general security controls environment.
        Our audit included the administrative costs claimed by the IN-DDB during Fiscal Years
        (FY) 2003 through 2004.

        BACKGROUND

        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act (Act), provides benefits to wage earners and their families in the event the wage
        earner becomes disabled. The Supplemental Security Income (SSI) program,
        established under Title XVI of the Act, provides benefits to financially needy individuals
        who are aged, blind, or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by disability determination
        services (DDS) in each State, Puerto Rico, and the District of Columbia in accordance
        with Federal regulations. 1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, each



        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – James F. Martin

DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations 2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the fiscal year, each DDS submits a
State Agency Report of Obligations for SSA Disability Programs (SSA-4513) to account
for program disbursements and unliquidated obligations. 4 The Form SSA-4513 reports
expenditures and unliquidated obligations for personnel service costs, medical costs,
indirect costs, and all other nonpersonnel costs.

The Indiana Family and Social Services Administration (IN-FSSA) is the IN-DDB’s
parent agency. The IN-DDB is located in Indianapolis, Indiana.

RESULTS OF REVIEW
Generally, the IN-DDB had effective controls over the accounting and reporting of
administrative costs. However, improvements are needed in the areas of medical costs
and general security controls. Our review of administrative costs disclosed that the
IN-DDB claimed consultative examination (CE) costs of $137,015 that exceeded the
highest allowable rate paid by Federal or other agencies in the State for the same or
similar type of service. Furthermore, the IN-DDB did not have an updated Continuity of
Operations Plan (COOP).

CONSULTATIVE EXAMINATION COSTS
For FYs 2003 and 2004, we found that in certain instances the IN-DDB reimbursed
medical providers at payment rates in excess of the maximum rates paid by Federal or
other agencies in the State. The related excess CE payments totaled $137,015.
Federal regulations require that each State determine the payment rates for medical or
other services necessary to make determinations of disability. The rates may not
2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 31 U.S.C. § 6501.
4
 SSA, POMS, DI 39506.200 B.4, “Unliquidated obligations represent obligations for which payment has
not yet been made. Unpaid obligations are considered unliquidated whether or not the goods or services
have been received.”
Page 3 – James F. Martin

exceed the highest rate paid by Federal or other agencies in the State for the same or
similar types of service. 5 The State is responsible for monitoring and overseeing the
rates of payment for medical and other services to ensure the rates do not exceed the
highest rate paid by Federal or other agencies in the State. 6

We compared the rates paid by Medicare with the fees paid by the IN-DDB for selected
medical examinations and tests. 7 We found that in certain instances the IN-DDB used
payment rates that exceeded those allowed by Medicare totaling $137,015 for
FYs 2003 and 2004 (see Appendix C). The related excess payments were:

      •   $87,549 in FY 2003, and
      •   $49,466 in FY 2004

The IN-DDB was unable to provide justification for exceeding the Medicare rates. We
recommend that SSA determine if it was necessary for the IN-DDB to exceed the
highest allowable fees to obtain the services. If SSA determines that it was not
necessary for the IN-DDB to exceed the highest allowable rates of payment, it should
take appropriate action, such as instructing the IN-DDB to refund the excess CE
payments and limiting future CE rates of payment.

GENERAL SECURITY CONTROLS
The IN-DDB’s Security Plan did not contain a COOP to follow in the event of a disaster
impacting DDS operations. According to SSA’s instructions, the COOP should be
included in Part F of the DDS’ Security Plan. 8 We were informed by the IN-DDB that a
COOP existed but it had not been updated since 1999. This finding was also reported
by the Chicago Regional Office in its November 2005 security review which
recommended that all parts of the DDS COOP that can be completed should be and
also recorded in Part F of the DDS Security Plan. The IN-DDB agreed with the
Regional Office’s recommendation and plans to develop an updated DDS COOP by
summer 2006.




5
    20 C.F.R. §§ 404.1624 and 416.1024.
6
    20 C.F.R. §§ 404.1519k(c) and 416.919k(c).
7
 We also compared the fees for these medical examinations and tests to the Indiana Bureau of
Developmental Disabled Services’ rates of payment. The Medicare fees were the highest allowable fees.
8
    The DDS Security Plan, Part F, should contain the COOP. SSA, POMS DI 39566.120.
Page 4 – James F. Martin

CONCLUSION AND RECOMMENDATIONS

Our review of administrative costs disclosed that in certain instances, the IN-DDB’s
medical payment rates exceeded the highest rate paid by Federal or other agencies in
the State, resulting in related excess payments of $137,015 for FYs 2003 and 2004.
Furthermore, the IN-DDB did not have an updated COOP to follow in the event of a
disaster affecting DDS operations.

We recommend that SSA:

1. Determine whether it was necessary for the IN-DDB to exceed the highest allowable
   fees to obtain the CE services. If SSA determines that it was not necessary for the
   IN-DDB to exceed the highest allowable rates of payment, it should take appropriate
   action, such as instructing the IN-DDB to refund the excess CE payments and
   limiting future CE rates of payment.

2. Ensure the IN-DDB develops an updated COOP within a reasonable timeframe.

SSA and FSSA Comments

SSA agreed with our recommendations. FSSA, in commenting on our draft report,
provided additional information for our consideration. Specifically, FSSA provided
medical documentation in support of the CE costs claimed by the IN-DDB and additional
information related to an existing but outdated COOP. See Appendix D and E for the
full text of SSA and FSSA comments, respectively.

OIG Response

With regards to the additional medical documentation provided by FSSA, we found the
documentation was not sufficient for us to change our conclusion that the IN-DDB
claimed CE costs that exceeded the highest allowable rate paid by Federal or other
agencies in the State for the same or similar type of service. However, given that the
Chicago Regional Office concluded that the CE fees paid by the IN-DDB were
necessary to provide timely and accurate disability determinations, we accept that
determination. Additionally, we modified recommendation number two based on
FSSA’s comments that the IN-DDB’s COOP needed to be updated instead of fully
developed.




                                           S
                                           Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Indiana Disability Determination Bureau Medical Costs

APPENDIX D – Agency Comments

APPENDIX E – Indiana Family and Social Services Administration Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
ACT        Social Security Act
CE         Consultative Examination
C.F.R.     Code of Federal Regulations
COOP       Continuity of Operations Plan
CPT        Current Procedural Terminology
DDS        Disability Determination Services
DI         Disability Insurance
FY         Fiscal Year
IN-DDB     Indiana Disability Determination Bureau
IN-FSSA    Indiana Family and Social Services Administration
POMS       Program Operations Manual System
PUB. L.    Public Law
SSA        Social Security Administration
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSI        Supplemental Security Income
Treasury   Department of the Treasury
U.S.C.     United States Code
                                                                        Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Indiana Disability
    Determination Bureau (IN-DDB) and the drawdown of SSA program grant funds.

•   Interviewed staff and officials at the Indiana Family and Social Services
    Administration (IN-FSSA), IN-DDB and SSA’s Chicago Regional Office.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other non-personnel costs.

•   Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

•   Reconciled State accounting records to the administrative costs reported by the
    IN-DDB on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Fiscal Years (FY) 2003 and 2004.

•   Examined specific administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by the IN-DDB for FYs 2003 and
    2004 on the SSA-4513. We used statistical sampling to select expenditures to test
    for documentation of the medical services and personnel costs.

•   Examined indirect costs claimed by the IN-DDB for FYs 2003 and 2004.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on SSA-4513.

•   Reviewed IN-DDB general security controls related to physical security and
    continuity of operations.

We determined that the data provided by IN-FSSA and IN-DDB used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it to the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.



                                             B-1
We performed our audit at the IN-DDB and IN-FSSA in Indianapolis, Indiana and the
Office of Audit in Chicago, Illinois. We conducted fieldwork from June 2005 through
January 2006. Our audit was conducted in accordance with generally accepted
government auditing standards.

METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513 (1) personnel, (2) medical, (3) indirect, and (4) all other nonpersonnel
costs. We obtained electronic records and paper accounting reports that supported the
personnel, medical, and all other nonpersonnel costs for FYs 2003 and 2004 for use in
sampling. These records were obtained from the accounting systems and accounting
reports used by the State of Indiana and the IN-DDB for the preparation of the
SSA-4513.

Personnel Costs

We randomly selected one pay period in the most recent year under review. We then
selected a random sample of regular employees for review and testing of the payroll
records.

For medical consultant costs, we selected the largest batched medical consultants’
expense in the same month we randomly selected for direct disability determination
services (DDS) personnel costs.

Medical Costs

We sampled 100 items (50 items from each FY) using a stratified random sample of
medical costs based on the proportion of medical evidence of record and consultative
examination costs to total medical costs claimed.

Indirect Costs

IN-DDB indirect costs are computed by applying a federally approved rate to a cost
base. This methodology was approved by the Department of Health and Human
Services, Division of Cost Allocation, which is the Federal agency designated to
negotiate and approve the indirect cost rate. As of March 31, 2005, the IN-DDB claimed
indirect costs of $1,647,441 for FY 2003 and $1,672,394 for FY 2004. We reviewed the
FY 2003 and 2004 indirect cost calculations to ensure the correct rate was applied.

All Other Nonpersonnel Costs

We conducted a 100 percent review of the DDS occupancy costs for FYs 2003 and
2004. The standard protocol for DDS administrative cost audits is to select a sample of
50 expense items for each FY stratified among the various areas of all other
nonpersonnel costs. However, the structure of the IN-DDS’ accounting records did not



                                           B-2
allow us to use the standard protocol to select expense items for review. Therefore, for
FY 2003 all other nonpersonnel costs, we selected the first 50 cost items listed on the
Indiana DDS’ September 2003 monthly expenditure postings report. For FY 2004 all
other nonpersonnel costs, we selected 50 cost items from the Indiana DDS’
September 2004 monthly expenditure postings based on the proportion of costs in each
of the cost areas compared to the total costs claimed. When the required 50 items were
not present on the September 2004 monthly expenditure postings report, we selected
expense items from the preceding month, August 2004, to complete our review of
expenses.




                                           B-3
                                                                                        Appendix C

Indiana Disability Determination Bureau
(IN-DDB) Medical Costs
                                                 Fiscal Year 2003
                                                                          Difference
                    Current                                                Between                       Amount in
                   Procedural                                         IN-DDB Fee and                      Excess of
IN-DDB Medical    Terminology                          Highest             Highest      Number of          Highest
         1                   2                                    3
    Code          (CPT) Code       IN-DDB Fee      Allowable Rate      Allowable Rate    Exams         Allowable Rate
      44805          93017           $ 175.00           $ 58.23           $ 116.77         407           $ 47,525.39
      44706          94010           $   50.00          $ 36.51           $   13.49      1,272           $ 17,159.28
      77967         7356026          $   16.00          $   8.52          $    7.48        363           $   2,715.24
      77867         73560TC          $   45.00          $ 17.99           $   27.01        371           $ 10,020.71
      77868         73560TC          $   45.00          $ 17.99           $   27.01        375           $ 10,128.75
                                                                                             Total     $ 87,549.37


                                                 Fiscal Year 2004
                                                                          Difference
                                                                           Between                       Amount in
                                                                      IN-DDB Fee and                      Excess of
IN-DDB Medical                                         Highest             Highest      Number of          Highest
     Code           CPT Code       IN-DDB Fee      Allowable Rate      Allowable Rate    Exams         Allowable Rate
      44809         93307TC          $ 200.00           $ 137.17          $   62.83              648     $ 40,713.84
      55504          92556           $   30.00          $ 20.65           $    9.35              624     $   5,834.40
      77851         73600TC          $   45.00          $ 17.21           $   27.79              105     $   2,917.95
                                                                                             Total     $ 49,466.19




1
    The IN-DDB identifies each medical examination and test with a numeric code.
2
  CPT is a uniform coding system maintained by the American Medical Association that is used primarily
to identify medical services and procedures furnished by physicians and other health care professionals.
The CPT codes in this table correspond to the listed IN-DDB codes.
3
 Federal regulations state that rates of payment used by the State”…may not exceed the highest rate
paid by Federal or other agencies in the State for the same or similar type of service.” The State must
also maintain documentation to support the rates of payment used.
                                                                                       Appendix D

           Agency Comments

 MEMORANDUM

 Date:     May 3, 2006                                                            Refer To: S2D5G2
           Refer


 To:       Inspector General

 From:     Regional Commissioner
           Chicago

Subject:   Draft Report of Administrative Costs Claimed by the Indiana Disability Determination Bureau
           (Your Request for Comments E-Mailed April 20, 2006) -- REPLY


           Thank you for the opportunity to comment on the subject report (A-05-05-15135). We have
           completed our review and have attached comments concerning the two findings contained in
           the draft report.

           We appreciate the challenges and difficulties the audit team faced during this audit. The audit
           team worked closely with my staff, conducting several conference calls and face-to-face
           meetings. We appreciated the open lines of communication.

           Again, we want to acknowledge the efforts of your staff in conducting such a comprehensive
           review of DDS activities.

           Questions about this memorandum may be directed to Jim Jamison, Financial Management
           Team Leader, at 312-575-4212.



                                                         /s/
                                                     James F. Martin




           Attachment

           cc:   Deputy Commissioner for Operations
                 Deputy Commissioner for Budget, Finance, and Management




                                                         D-1
                                                                                     Attachment


Administrative Costs Claimed by the Indiana Disability Determination Bureau
(A-05-05-15135)


Recommendation 1 -- Determine if it was necessary for the IN-DDB to exceed the highest
allowable fees to obtain the CE services. If SSA determines that it was not necessary for the
IN-DDB to exceed the highest allowable rates of payment, it should take appropriate action,
such as instructing the IN-DDB to refund the excess CE payments and limit future CE rates of
payment.

Comment -- We agree that the IN-DDB is required to maintain documentation that the rate of
payment for medical evidence and CEs does not exceed the highest rate paid by Federal or
public agencies in the State for the same or similar services [20 CFR 404.1519k (a)]. We also
agree that in this instance the IN-DDB had not followed the regulations and had not requested
any waiver or exception from these requirements. However, based on the documentation they
have submitted, we believe the actions of the DDB were justifiable and necessary in order to
provide timely and accurate disability determinations. We believe that it was, and is, necessary
for the IN-DDB to pay these higher fees for CE services, and would have approved an exception
to the regulations had a timely request been made.

Historically, the IN-DDB has worked diligently to control medical case costs. We believe their
CE fee schedule reflects the DDB’s best efforts to obtain CE services that represent the best
value to the Agency, considering such factors as reliability, quality, availability, timeliness, and
claimant convenience. The DDB is unable to locate providers willing to perform these tests and
procedures at a lower fee. We have reminded the DDB staff that they should request
exceptions to the fee schedule regulations in writing, and that proper documentation (e.g., a
printout of the State component and/or Medicare, or other Federal, fee schedule) should be
maintained in the DDB for all other fees.

Recommendation 2 – SSA should ensure the IN-DDB develops a Continuity of Operations
Plan (COOP) within a reasonable timeframe.

Comment -- We concur with this audit finding which mirrored a recommendation from a recent
Regional Office security review. We will work with the DDB and our Central Office staff to
develop a COOP. We expect to have a plan in place by the end of the FY.




                                                D-2
                                     Appendix E

Indiana Family and Social Services
Administration Comments
                                                                   Division of Disability And
                                                                      Rehabilitative Services
                                                         DISABILITY DETERMINATION BUREAU
                                                                                 P. O. BOX 7069
                                                              INDIANAPOLIS, INDIANA 46207-7069
                                                            OFFICE OF THE DEPUTY DIRECTOR



                           INTER AGENCY MEMORANDUM


DATE:                   May 18, 2006
TO:                     Steven L. Schaeffer, Assistant Inspector General for Audit SSA/OIG
CC:
                        Myles McFadden, DPA, SSA Chicago Regional Office
                        Peter A. Bisbecos, Director, FSSA/DDRS
                        David Nelson, Director of Finance, FSSA
                        Tina Keith, Accountant, FSSA
                        Debra Currey, Finance, FSSA
                        Scott Krumwied, Admin. Services Director, DDB
FROM:                   Patricia A. Carew-Ceesay, Deputy Director, DDB

SUBJECT:                Administrative Costs Claimed by the Indiana
                        Disability Determination Bureau (A-05-05-15135)

REF:                    Draft Audit Report


The Indiana Disability Determination Bureau would like to submit the following
comments on the subject Draft Audit Report.

The Disability Determination Bureau’s Response to Findings Regarding the
Consultative Examination Fee Schedule
The Disability Determination Bureau (DDB) has attached a file that indicates that
during Federal Fiscal Years 2003 and 2004 the DDB was not reimbursing medical
providers in excess of the maximum rates paid by Federal or other agencies within the
State. Between the fees allowed by the Railroad Board Review (RBR) and fees allowed
by the Indiana Vocational Rehabilitation Services (VRS) the DDB was within fees paid
by these two entities. Vocational Rehabilitation basically paid prevailing rates. The DDB
requested sample payments for the CPT codes in question. The results and comparisons
are in the attached spreadsheets. Recently both the RBR and VR revised their fee
schedules to be close to, if not within, Medicare rates. While for the most part DDB was

Voice: (317) 396-2007                  State e-mail Address: Patricia.Carew-Ceesay@fssa.in.gov
FAX: (317) 396-0206                    Federal e-mail Address: Patricia.Carew-Ceesay@ssa.gov

                                             E-1
INTER AGENCY MEMORANDUM
DATE: MAY 17, 2006
TO: STEVEN SCHAEFFER., ASSISTANT INSPECTOR GENERAL FOR AUDIT; SOCIAL SECURITY
ADMINISTRATION
CC:   PETER A. BISBECOS, DIRECTOR, DIVISION OF DISABILITY AND REHABILITATIVE SERVICES
RE:   Administrative Costs Claimed By The Indiana Disability Determination Bureau
      (A-05-05-15135)

PAGE 2


within the Medicare Fee schedule, the DDB fully intends revise its Fee Schedules to be
within 100% of the Medicare Fee scheduled by the end of the Federal Fiscal Year 2006
third quarter. Of course there will continue to be minor and few exceptions to the fee
schedules. A result of a lack of sources in an area; or the combination of test/exams at
one location versus the payment of travel by the claimant to two locations; etc. But for
the majority of fees allowed, the DDB will be in line with the Medicare rates.




The Disability Determination Bureau’s Response to Findings Regarding the
Continuity of Operations/Disaster Recovery

A Security Audit completed in late FY05 by Deloitte & Touche LLP under the
direction of the Social Security Administration noted the need for the Indiana
Disability Determination Bureau to update their current COOP. (see below). The
DDB suggests that the wording of the finding be revised to reflect the need to update
our current COOP versus the current wording that one needs to be developed.

   Section F:       CONTINUITY OF OPERATIONS/DISASTER RECOVERY

   Observations and Recommendations
   A review of the Continuity of Operations Plans (COOP) and the Disaster Recovery
   Plan (DRP) for the DDS found the COOP and DRP have not been updated since
   1999. Specifically, we noted the mission critical functions and workloads that were
   identified have not been updated to incorporate new processes and procedures that
   have been implemented at the DDS. This condition increases the risk of not being
   able to resume normal business operations in a timely manner in the event of a
   disaster. [Question 5, September 2003]

   We recommend the COOP and DRP be updated periodically in accordance with
   SSA’s policies and procedures




                                             2
                                             E-2
INTER AGENCY MEMORANDUM
DATE: MAY 17, 2006
TO: STEVEN SCHAEFFER., ASSISTANT INSPECTOR GENERAL FOR AUDIT; SOCIAL SECURITY
ADMINISTRATION
CC:   PETER A. BISBECOS, DIRECTOR, DIVISION OF DISABILITY AND REHABILITATIVE SERVICES
RE:   Administrative Costs Claimed By The Indiana Disability Determination Bureau
      (A-05-05-15135)

PAGE 3




The Indiana Disability Determination Bureau’s Response to the November 2005
Audit Findings & Recommendations:
The Indiana DDB will work closely with our Chicago Regional Office DPA, currently
Myles McFadden, to develop an updated DDS Continuity of Operations Plan.



Additional Comments on the Current OIG Audit Findings & Recommendations:
The above referenced updated COOP will be developed in coordination with the
Chicago Regional Office and our DPA, in compliance with SSA’s recently issued COOP
Guidelines and Protocol.




Attachments (2)

Attachment 1 - Comparison of DDS Fees to Medicare and State Rates

Attachment 2 - Indiana Vocational Rehabilitation Services CPT Code Payment Amounts
               For FFY2003 and FFY2004




                                             3

                                             E-3
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Mark Bailey, Director, Chicago Audit Division, (816) 936-5591

   Teresa Williams, Audit Manager, Chicago, Illinois (312) 353-0331

Acknowledgments

In addition to those named above:

   Lorrie Clement, Auditor-in-Charge

   Anthony Lesniak, Auditor

   Sherman Doss, Auditor

   Kenneth Bennett, Information Technology Specialist

   Cheryl Robinson, Writer-Editor

For additional copies of this report, please visit our web site at http://ww.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-05-05-15135.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
